HHS/OIG, Audit - "Audit of Air Ambulance Claims Paid to Covenant Health
System During Calendar Year 2002,"
(A-06-06-00046)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of Air Ambulance Claims Paid to Covenant Health System During Calendar Year 2002," (A-06-06-00046)
February 15, 2007
Complete Text of Report is available in PDF format (664 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether 100 air ambulance claims for which Covenant Health System (Covenant) received payment during calendar year 2002 were allowable in accordance with Medicare reimbursement requirements.
Covenant improperly billed the Medicare program for air ambulance services for 24 of the 100 sample claims, resulting in Medicare overpayments totaling $15,183 during calendar year 2002. Specifically, Covenant improperly billed for air transportation that was not documented as medically necessary and appropriate (14 claims), mileage beyond the nearest hospitals with appropriate facilities to treat the patients (6 claims), inaccurate mileage (3 claims), and rotary wing transport when fixed wing transport was provided (1 claim).
We recommended that Covenant refund to the Medicare program $15,183 in overpayments it received for air ambulance services during calendar year 2002. In written comments, Covenant stated that it had a physician perform a medical review of the improperly billed claims, and, as a result, disagreed with two of our four findings: (1) air transportation that was not documented as medically necessary and appropriate and (2) mileage beyond the nearest hospital with appropriate facilities to treat the patient. Although Covenant provided a summary of the physician’s review, it did not provide additional medical records to support its position. We continue to believe that Covenant should refund the entire $15,183.